                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF JNVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




                  NSF OIG received an allegation that a subject1 submitted NSF proposals2 containing
          plagiarism. OIG conducted an inquiry and, since the evidence warranted an investigation,
          referred the matter to the university3 for investigation. The Investigation Committee concluded,
          based on a preponderance of evidence, that the Subject recklessly committed plagiarism, which it
          deemed a significant departure from accepted practices. The University imposed the following
          sanctions: 1) The Subject develop an educational document about plagiarism; 2) The Subject not
          submit external grant proposals for one year; 3) A letter regarding the matter be included in the
          Subject's personnel file; 4) The Subject send an apology letter to the author of the source text
          from which the majority of material was plagiarized; and 5) The Subject not be eligible for
          FY2009 merit salary.

                  OIG concurred with the University assessment, and recommended NSF: 1) make a
          finding of research misconduct; 2) send the PI a letter of reprimand; 3) require certifications for a
          period of 2 years; 4) require assurances for a period of 2 years; and 5) require certification of
          completion of the educational document. The Deputy Director accepted our recommendations,
          adding the Subject be required to complete an ethics course.

                 This memo, the attached Report of Investigation, and the Deputy Director's letter constitute
          the case closeout. Accordingly, this case is closed.




NSF 01G Form 2 (1 1102)
                                     NATIONALSCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230




        OFFICE OF THE
       DEPUTY DIRECTOR
,



    CERTIFIED MAIL --RETURN RECEIPT REOUESTED




           Re:     Notice of Research Misconduct Determination

    Dear Dr.   w
           From 2006 - 2007. vou submitted two vrovosals to the National Science Foundation



    Inspector General ("OIG"), these proposals contained plagiarized text.

    Research Misconduct and Proposed Sanctions
            Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
    plagiarism in proposing or performing research funded by NSF ..." 45 CFR $ 689.1 (a). NSF
    defines "plagiarism" as 'Yhe appropriation of another person's ideas, processes, results or words
    without giving appropriate credit." 45 CFR $ 689.1(a)(3). A finding of research misconduct
    requires that:

           (1) There be a significant departure fiom accepted practices of the relevant research
               community; and
           (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
           (3) The allegation be proven by a preponderance of evidence.

    45 CFR 9 689.2(c).

            Your proposals contained verbatim and paraphrased text fiom several source documents.
    By submitting proposals to NSF that copy the ideas or words of another without adequate
    attribution, as described in the OIG Investigative Report, you misrepresented someone else's
    work as your own. In addition, you failed to properly acknowledge or credit the authors of the
    source documents in your proposals. Your conduct unquestionably constitutes plagiarism. I
                                                                                                        Page 2
         therefore conclude that your actions meet the definition of "research misconduct" set forth in
!I
         NSF's regulations.

                 Pursuant to NSF regulations, the Foundation must also determine whether to make a
         Jinding of misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After
         reviewing the Investigative Report and the University Investigation Committee Report, NSF has
         determined that, based on a preponderance of the evidence, your plagiarism was committed
         recklessly and constituted a significant departure fiom accepted practices of the relevant research
     "
         community. I am, therefore, issuing a finding of research misconduct against you.

                  NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be
         taken in response to a finding of misconduct. 45 CFR 5 689.3(a). Group I actions include issuing
         a letter of reprimand; conditioning awards on prior approval of particular activities fiom NSF;
         requiring that an institution or individual obtain special prior approval of particular activities fiom
         NSF; and requiring that an institutional representative certifL as to the accuracy of reports or
         certifications of compliance with particular requirements. 45 CFR 5 689.3(a)(l). Group I1
         actions include award suspension or restrictions on designated activities or expenditures; requiring
         special reviews of requests for finding; and requiring correction to the research record. 45 CFR 5
         689.3(a)(2). Group I11 actions include suspension or termination of awards; prohibitions on
         participation as NSF reviewers, advisors or consultants; and debarment or suspension fiom
         participation in NSF programs. 45 CFR 5 689.3(a)(3).

                 In determining the severity of the skction to impose for research misconduct, I have
         considered the seriousness of the misconduct, our determination that it was committed recklessly,
         as well as our determination that it was a part of a pattern of plagiarism. I have also considered
         the fact that your misconduct did not have a significant impact on the research record, as well as
         the contrition that you demonstrated during the investigative process. I have also considered
         other relevant circumstances. 45 CFR 5 689.3 (b).

                 In light of the foregoing, I am taking the following actions:

                From the date of this letter until March 1, 201 1, you are required to certifL that proposals
                or reports you submit to NSF do not contain plagiarized, falsified, or fabricated material.

                From the date of this letter until March 1,201 1, you are required to submit assurances by
                a responsible official of your employer that any proposals or reports you submit to NSF do
                not contain plagiarized, falsified, or fabricated material.    \



                You are required to complete a course on research ethics and plagiarism by July 3 1, 2009.
                You must certifL in writing that such training has been completed, and must provide
                documentation to prove your attendance at that course.

                You must certifL that you completed the teaching document on plagiarism, as described in
                section V(A) of the University's Investigative report, by September 1, 2009.
                                                                                            Page 3
   All certifications and assurances should be submitted in writing to the Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia 22230.


Procedures Governinn Aupeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director ofthe Foundation. 45 CFR $ 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attachmg a copy of the applicable regulations. If you have
any questions about the foregoing, please call            Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,



                                                     Cora B. Marrett
                                                     Acting Deputy Director


Enclosures
- Investigative Report
- 45 C.F.R. Part 689,
    N atlonal 3clence F'oundatlon
      Office of Inspector General




                     Confidential
                              ,


                 Investigation Report
               Case Number A07070037
                   October 3,2008



Thls Confidential Investigation Report is the property of the NSF O I G and may be disclosed outside
                                                                                    ss
   NSF only by O I G under the Freedom of Informatton and Privacy Acts, 5 U.S.C. 552,552a.

                                                                                   NSF OIG Form 22b (1 1/06)
                                       Executive Summarv
Allegation:     Plagiarism.
OIG Inquiry:    OIG identified 8 source texts from which approximately 123 unique lines and 7
                embedded references were apparently copied into two declined NSF proposals.
                OIG referred the matter to the Subject's home institution.
University
Inquiry:          The University conducted an inquiry into the allegation and concluded there was
                  sufficient evidence to warrant an investigation.
University
Investigation
and Action:       The Investigation Committee concluded, based on a preponderance of the
                  evidence, that the Subject recklessly committed plagiarism, deemed a significant
                  departure from accepted practices.
                  The Deciding Official accepted the Committee's recommendations that: 1) The
                  Subject develop an educational document about plagiarism by July 1,2009; 2)
                  The Subject not submit external grant proposals before April 24,2009; 3) A
                  letter regarding the misconduct and completion of the educational document be
                  included in the Subject's personnel file; 4) The Subject send an apology letter by
                  June 1,2009 to the author of the source text from which the majority of material
                  was plagiarized; and 5) The Subject not be eligible for FY 2009 merit salary.

OIG Assessment:          OIG concurs with University assessment.
                            The Act: The Subject committed plagiarism in two proposals.
                            Intent: The Subject acted recklessly.
                            Standard of Proof: A preponderance of evidence supports the
                            conclusion that the Subject committed plagiarism.
                            Significant Departure: The Subject's plagiarism represents a
                            significant departure from accepted practices.
                            Pattern: A University pre-grant proposal contained plagiarism in
                            addition to the two NSF proposals.
OIG Recommends:
                              Make a finding of research misconduct against the Subject.
                              Send the Subject a letter of reprimand.
                              Require certifications from the Subject for a period of 2 years.
                              Require assurances from the Subject for a period of 2 years.
                              Require certification of completion of the approved educational
                              document about plagiarism.
                                                   OIG's Inquiry

         The National Science Foundation (NSF) Office of Inspector General (OIG) conducted an
inquiry into an allegation that the subject' submitted an NSF proposal (Proposal 12)containing
plagiarism. Our initial analysis of this proposal found approximately 118 unique lines and 7
embedded references apparently copied from 5 source texts.3 The majority of the potentially
plagiarized text - 65 lines and 6 embedded re'Ferences - was fiom a CAREER proposal posted on
the Subject's University grant office's website (Source A ) . ~    Text from Source A comprised nearly
three sections of Proposal 1's Project ~ e s c r i ~ t i oand
                                                           n ~nearly 30% of its Project Summary, while
the embedded references from Source A comprised one subsection of Proposal 1's ~ e f e r e n c e s . ~
Changes between Source A and Proposal 1 consisted primarily of changing the project's discipline.
Otherwise, the Subject did not personalize Source A; for example, he maintained Source A's use of
"The PI" throughout Proposal 1 to describe himself; described "the support and encouragement he
has received from the Chair of the Dept. ofy7to describe his own situation; and included Source A's
institutional statement of purpose as his own University's mission statement.'
                                                                                                          i=
        OIG contacted the Subject about the allegation.9 The Subject responded10 that: 1) he did
include references to source documents but did not use quotation marks to identify verbatim text;"
2) he received materials fiom the University's grants office12 and did not know whether or how to
cite them;13 3) the annotated text was in the proposal's introductory section;I4 4) he did not claim
the annotated text as his own;" 5) typos and reference renumbering errors occurred;I6 6) certain
annotated phrases and words are commonly used without citation;I7 and 7) he misunderstood NSFYs




subsection.
' Tab I , Source A7, pg 13.
   Tab 1, Source A7, pg 13. Source A presented the institutional state
which differs from the mission statement of the Subject's University,
   Tab 3.
10
    The Subject provided our office with two written responses: a brief letter dated July 26,2007 (Tab 4), and a more
elaborate letter with attachments and a CD dated August 17,2007 (Tab 5).
" ~ a b 4 pg
           , 1 ; ~ a b 51., ~ ~
l 2 The Subject received an email on April 6,2006, from a University grants officer referring him to examine online
proposals that contained Source A (Tab 5, appendix; Tab 1 1, pg El).
1'3
    Tab 4, pg 2; Tab 5, pg 2.
14
    Tab 4, pg 1 .
I5
    Tab 5, pg 5-6.
         b pg 1 .
I 6 ~ a 5,
' 7 ~ a b 5 , p Ig.
definition of plagiarism.18 In general, he argued that "the errors which occur are honest
(~nintentional):"'~
                   The main error I have made is that I did not put the exact citations in
                   quotations marks. I did not know that this grammatical rule is so
                   important (the definition of plagiarism does not say what means
                   'appropriate credit'. To the best of my knowledge we cite a reference by
                   the name of the authors and the year of publication or following a
                   numeration given in the lisi of references. I have used the latter one
                   because it saves space).20

       The Subject's response did not dispel the allegation most crucially because the Subject did
not deny having copied material into his proposal, but instead explained why he had done so.

        In addition, in the Subject's response, he informed OIG that his pending NSF proposal
contained many of the same citation problems.21OIG reviewed this proposal (Proposal 2)22and
identified 98 lines and 6 embedded references copied from both the same 5 sources and 3 additional
sources. Again, much of the allegedly plagiarized text was from Source A.

           The following chart summarizes the allegedly copied text in each proposal:
                             Proposal 1               Proposal 2              Total
             Source          (Declined)               (Declined)              (Unique)
                             65 lines;                50 lines;               65 lines
             A               6 embedded references    6 embedded references   6 embedded references
             B               10 lines                 7 lines                 7 linesz3
                             15 lines;                                        15 lines;
             C               1 embedded reference     7 lines                 1 embedded reference
             D               16 lines                 8 lines                 8 linesz4
             E               12 lines                 I0 lines                12 lines
             F                                        9 lines                 9 lines
             G                                        3 lines                 3 lines
             H                                        4 lines                 4 lines
             Total
             (Non-           118 lines;               98 lines;               123 lines;
             Unique)         7 embedded references    6 embedded references   7 embedded references

As illustrated, OIG identified within the two proposals a total of 123 lines of unique text ?nd 7
embedded references apparently copied from 8 sources. We concluded that there was sufficient
evidence to proceed with an investigation, and referred the matter to the


18
   Tab 5, pg 1,2.
19
   Tab 5, cover letter.
20 Tab 5, pa 6.




24   A Portion of Source D was used twice within ~robosals1 and 2.
                                         University Inquirv and Investigation

           Consistent with the University         the Dean of Graduate Studies and Research
    convened an Inquiry Committee. The Inquiry Committee concluded that a formal investigation was
    warranted, and the Dean of Graduate Studies and Research appointed an Investigation Committee
    (Committee). 27

            The Committee reviewed materials NSF provided, and examined-documents and emails
    found on the Subject's computers.28 Using plagiarism detection software,29the Committee
    reviewed computer files and generally found only short passages of text that, though cited, did not
    clearly indicate that the Subject had not authored the text.30However, the Committee found that a
    grant pre-proposal submitted to the university3' contained more extensive uncited text.32

            "Because the respondent was educated and spent his early formative professional career in
    [another country],33the Committee explored how plagiarism is viewed in relevant cultural and
    professional context."34 The Committee examined education regulations35within the Subject's
    native country and determined that a definition of plagiarism cannot be found within such
    documents.36The Committee also consulted other scholars from that country and was told: that
    scholars there are taught that reference lists are critical; that U.S. rules might be unfamiliar to one
    who is only beginning to publish here; and that the language barrier is "the most important thing."                      37


            Additionally, the Committee interviewed the ~ubject.~'
                                                                 During the interview, the Subject
    said he had never learned a formal definition of plagiarism:

                      So at that time if I remember right, nobody taught us that definition. . . . I
                      have never seen there a definition of plagiarism, this is what we know as
                      researchers, Don't take the ideas of anybody, don't take the data, don't
                      take the mind of anybody.3g




    27 Tab 10.
    2 8 ~ a b l l , p1,2.
                      g
    29 i'rhenticate. Tab 11, Appendix C contains a list of the materials the University reviewed using iThenticate and Tab
    1 1, Appendix D contains sample reports from a sampling of those documents.
    3 0 ~ albl , p g 5 .
    31
                         -arp2005 and pgs D42-46.
    32
    33



    " w i g h e r Education Act (Tab 11, pg 2).
    36
       Tab 11, pg 2.
    37 Tab 11, pg 2-3. According to the Subject's biographical sketch (located in Tabs 1 and 6), the Subject did not begin a
    U.S. teaching appointment until-
    38
/      Tab 11, pg A1 contains the interview questions.
    39 ~ a 11,
            b pg B6.
     He said that he had never heard of any plagiarism cases or consequences of plagiarism in his native
     country.40The Subject ex lained that his understanding of plagiarism was thus limited to plagiarism
     of ideas, and not words: ""I didn't put quotations. It was because I thought that if you, if you used
     a reference, this was sufficient and now I know that there is a strong need of quotations."42The
     Subject also said he misunderstood whether and how to cite appro riated Source A material,
     explaining "I regret this mistake very much because it is wrong.'y4PBecauseof his
     misunderstandings regarding plagiarism, the Subject acknowledged that he had probably cited text
     inappropriately on other occasions,44 adding that "If I didn't know something until this point, [they]
     logically          [find similar errors in his previous writings]. The Subject concluded that ". . . if I
     do something like this from this moment on, I'll take the re~~onsibility,"'~ indicating such an action
     could no longer be an error.

             The Committee concluded "based on a preponderance of the evidence," that the
     "respondent's actions with regard to the NSF proposal [ ] constituted plagiarism as defined b
     NSF's regulation."" Furthermore, after considering "the cultural and professional contexts," the    7
     Committee determined that "based on a preponderance of the evidence, the plagiarism constituted a
     significant departure from accepted practices of the relevant research community."

             The Committee found that the Subject committed the plagiarism recklessly. They based this
     conclusion upon the Subject's explanation of not knowing how to properly attribute text in
     conjunction with their understanding of his research background which was mostly in eastern
     European countries. The Committee concluded that "there was no malicious intent on the part of
     the respondent in these innstancesof misappropriation of the words of other^."'^

                The Committee recommended that the Subject:

                           1) complete a plagiarism document in which he would

                                        examine the literature regarding plagiarism, and create a
                                        document that will be used by our institution to educate
                                        campus faculty in issues regarding plagiarism and
                                        scholarly activity. . . . It should include general discussion
                                        of the issue as well as specific examples (including both
                                        clear-cut examples but also exploring the nuances of what
                                        constitutes plagiarism). The document should discuss a
                                        sampling of standards adopted in both national and
                                        international academic societies and organizations, with
                                        some examples of national societies of foreign countries,

':   40 Tab 1 1 ,    pg B7.
     41 Tab 1 1,     pg 6.
     4 2 ~ a 1b1 ,   pgB11.
     43 Tab 1 1 ,    pg 7.
     44 Tab 1 1 ,    pg 6-7.
     45 Tab 1 1 , pgB19.
     46 Tab 1 1 , pgB21.
     47 Tab 1 1 , pg 9.
     4 8 ~ a 1b1 , pg 10.
     49 Tab 1 1 , pg 10.
                                      partly so that faculty who were not educated in the US can
                                      see the world-wide-significance of the issue;50

                        2) lose his graduate status until completing the above document thus demonstrating
                           that he can adequately train graduate students;"

                        3) not submit external grant proposals until completing the above document,
                           allowing the University to be more confident with his submission^;^^

                        4) have a letter of reprimand and a letter confirming completion of the above
                           document permanently included in his files, creating "some permanent record
                           showing the violation and consequences";53and

                        5) apologize in writing to Source A's

    More generally, the Committee recommended that the University "examine the possible
efficacy of having campus grant proposal submissions and/or journal submissions vetted by some
kind of software;"56and "consider whether the merit pay increase of the respondent for FY 2009 be
adjusted as a result of the m i s c ~ n d u c t . " ~ ~

                                    Subject's Response to Investigation Report

        The University provided the Subject with the draft report. In his response, the Subject
"express[ed] some concerns regarding the ascendance of the suggested actions and their. long term
effect on my future teaching, and research career as well as my entire life."'' Specifically, he
expressed "the need of an elaborated plan of the work and measurement of the notion
'accomplished"' related to educational document he was asked to prepare.59He also argued that by
having his graduate status rescinded he would be barred from teaching graduate courses, an action
that would adversely affect his student^.^'

                                             Universitv Adiudication

    The Deciding Official ( ~ 0 )reviewed
                                  ~ '     the Report and "accept[ed] and uph[e]ld the three
findings regarding plagiarism."62He accepted and clarified the Committee's recommendations that:

           The Subject must develop a completed and approved educational documed by July 1,2009;




"  Tab 11, pg     11.
56
   Tab 1 1 , pg   11.
57
   Tab 1 I , pg   12.
58
   Tab 13, pg     1.
59 Tab 13, pg     1.

62
     Tab 13, pg 1.
            The Subject not submit external grant proposal before April 24,2009;
            A letter documenting the matter and completion of the above document be placed in the
            Subject's permanent file for only campus use and not be shared unless required by law;
            The Subject send a written apology to Source A's author by June 1,2009; and
\           The Subject not be eligible for FY 2009 merit salary.63

    The DO rejected the recommendation that the Subject lose his graduate status due to the "undue
    harm to graduate students" it would cause. The DO also decided that plagiarism software would not
    be used to screen all proposal submissions because of the "undue burdens on departments, deans,
    and the Graduate School" that would result.64

                                             OIG's Assessment

            The University provided OIG with its Report and attachment^.^^ OIG reviewed the Report
                                                                                                         I
    and concludes that the University followed reasonable procedures and produced an accurate and
    complete body of evidence addressing the allegation. OIG finds that the University's Report
    adequately responded to the scientific issues identified in our investigation referral letter. OIG
    therefore accepts the University's Report and its evidentiary record in lieu of conducting our own
    investigation.

            We informed the Subject that we had received the Report and invited him to provide
    additional comment.66In his response, the Subject stated:

                    I am looking forward to working with my authorities to satisfy the
                    recommendations, suggested by the Investigating Committee, and
                    accepted by the President of [ ~ n i v e r s i t y ] . ~ ~

           A finding of research misconduct by NSF requires that (1) there be a significant departure
    from accepted practices of the relevant research community, that (2) the research miscondudt be
    committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
    preponderance of the e~idence.~'                                                                         \

                                                   The Act
            The Subject plagiarized 123 unique lines and 7 embedded references from 8 source texts all
    of which were located on the Internet - 1 NSF proposal; 1 conference proceeding; 3 journal articles;
    and 2 web pages - within 2 declined NSF proposals. Throughout the inquiry and investigation the
    Subject did not contest that he copied the material but rather contested that he had not been aware
    that what he had done - include verbatim text often with a preceding or following citation -
    constituted plagiarism.

           OIG concurs with the Committee that the Subject significantly departed from the accepted
    standards of the research community in offering text written by others as his own words without

       Tab 14.
    64 Tab 14.
             b ~11, and 13.
    6 5 ~ a10,
    66 ~ a 15.
            b
    67 Tab 16.
       45 C.F.R. §689.2(~).
indicating in some manner that the words were not his own. Furthermore, OIG finds that by
copying a large amount of education-related text and references from Source A, the Subject
misrepresented his own effort and underlying body of knowledge regarding education, an important
component of CAREER proposals. The Subject thus presented reviewers with an incorrect measure
of his abilities in that area.

                                               Intent
       Though our office generally believes that most acts of plagiarism are done knowingly, OIG
concurs with the University Committee's conclusion that the Subject acted recklessly. Though the
Subject knew he had often included text with a preceding or following citation or with no citation
(such as Source A) when he submitted the proposal, in this situation, the evidence shows that the
Subject did not know that such an action constituted plagiarism.

        First, the Subject seemed genuinely unaware that incorporating another source's verbatim
text with only a citation before or after that text is inadequate. Similarly, the Subject seemed
genuinely confused about how to cite materials he found online that could not easily be attributed to
one individual and materials he received from the University's grant office.69

       Second, the Subject consistently made such errors in citation both in his NSF proposals and
the documents the University examined. The Subject thus did not demonstrate proficiency in one
work and then claim non-proficiency in another.

        For the above reasons, OIG concludes that the Subject was reckless when he submitted the
proposals which included improperly cited text. Nonetheless, because a reasonable person should
have known that such an action constituted plagiarism, OIG finds the Subject's actions are a
significant departure from what ought to be expected of a reasonable person.
                                                     //



                                      Standard o f Proof
       OIG concurs with the Committee that the Subject's actions and intent were proven based on
a preponderance of the evidence.

       OIG concludes that the Subject, by a preponderance of the evidence, recklessly plagiarized,
thereby committing an act of research m i s c o n d ~ c t . ~ ~

                                      OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it was
             an isolated event or part of a pattern; (4) Whether it had a significant
             impact on the research record, research subjects, other researchers,
             institutions or the public welfare; and (5) Other relevant
                   circumstance^.^'
69 Tab   2, Source E.
70 45   C.F.R. part 689.
7'   45,C.F.R. $689.3(b).
                                              Seriousness
        The PI'S actions are a violation of the standards of scholarship and of the fundamental tenets
of research ethics. The extent of the plagiarism - approximately 123 unique lines and 7 embedded
references within two declined NSF proposals from 8 source texts - is itself serious.

                                Degree to which the Action was Reckless
         As already explained, OIG generally believes that most acts of plagiarism are done
knowingly. However, for the following reasons we find in this situation that the Subject acted
recklessly. First, the Subject had only limited experience with the U.S. academic system.72He
earned his undergraduate and graduate degrees in his native country, and his employment history
includes many foreign institution^.^^ While he first came to the U.S. in 2001 to teach, he was
initially ineligible to submit proposals due to university restriction^.^^ Only after he was appointed
to his current University in 2004, did he begin to submit proposals.75

        Second, his publication experience consists of mostly writings produced prior to arriving in
the u . s . ~ ~ the Subject published about 80 papers and co-authored 2 books,77his experience
            Though
with U.S. publications and their requirements is sparse.78 Similarly, he has presented papers in
seminars and professional meetings held primarily in foreign c~untries.~'

        Although a reasonable person would be expected to know that using verbatim text from
another proposal was not acceptable, we believe the subject's professional background led to a lack
of thorough understanding regarding appropriate citation practices. As a result, OIG concludes the
subject's actions fall into a reckless category.

                                          Pattern
       OIG concludes that the subject did exhibit a pattern of pl-igiarism in the two NSF proposals
and the additional plagiarism identified only in one university pre-grant proposal.

                         The Subject's Response to Draft Investigation Report

       OIG provided the Sub'ect with a copy of our draft report and attachments, and afforded him
the opportunity to comment.8d The Subject supplied a detailed response.81 We reviewed the
Subject's response and made only very slight modifications to the draft report. Our conclusions and
recommendations however remained identical to those of the draft report.

72Tab 17 contains information regarding the Subject's education; invited lectures and seminars; publications; reviews;
and current research projects.



in Tab 17, the Subject has seemingly only received funding from institutions at which he was employed or as co-PI on
another's proposal.
75 ~ a 5,b pg 1.
76 Tab 17, "List of Selected Publications."
77
   Tab 5, pg 1.
78
   ~ c c o r d i to
                 h Tab 17, "List of Selected Publications," both books were published by non-U.S. publishers.
79

(Tab 5, pg 1). Tab 17, "Record of Seminars and Invited Lectures" provides a more comprehensive list.
80   -fy;ri;i!
&?a&
                                                   Recommendation

Based on the evidence, OIG recommends that NSF:

              .* send a letter of reprimand to the Subject informing him that NSF has made a finding
                    of research m i s c o n d u ~ t ; ~ ~

                    require the Subject to certify to OIG's Associate Inspector General for Investigations
                    (AIGI) that proposals or reports he submits to NSF do not contain plagiarized
                    material for 2 years;g3 .

                   require that the Subject submit assurances by a responsible official of his employer
                   to AIGI, OIG, that any proposals or reports submitted by the subject to NSF do not
                   contain plagiarized material for 2 years;84and

                    Require certification of completion of the approved educational document about
                    plagiarism be submitted to AIGI.




     A letter of reprimand is a ' ~ r o Iuaction
                                           ~     (45 C.F.R. §689.3(a)(l)(i)).
     Certification by an individual is authorized in 45 C.F.R. §689.3(a).
84   Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).

                                                            10
